Investigative Report on Management Issues, 02/25/98
Home | Previous Page
This document is an HTML formatted version of a printed document. The printed
document may contain agency comments, charts, photographs, appendices,
footnotes and page numbers which may not be reproduced in this electronic
version. If you require a printed version of this document contact the
United States Securities and Exchange Commission, Office of Inspector General,
Mail Stop 11-7, 450 Fifth Street N.W., Washington, D.C. 20549 or call (202)
942-4460.
Investigative Report on Management Issues
OIG - 248
February 25, 1998
To: Jayne Seidman
From:Walter Stachnik
Re:Metro Subsidy
Program Recommendations
We conducted an investigation into allegations of misuse in the metro
subsidy program at the Operations Center. According to the allegations,
certain Operations Center employees were receiving the subsidy while regularly
driving to work. The investigation identified a need for improved management
controls over the metro subsidy program, as discussed below.
Program Monitoring
According to an official of the Office of Administrative and Personnel
Management, subsidy recipients would in most cases take the Commission's
shuttle between the Van Dorn metro stop and the Operations Center. Passengers
on the shuttle are required to sign a shuttle log. To determine how many
passengers generally rode the shuttle, we interviewed shuttle drivers and
counted the number of signatures on the shuttle log sheets for selected
months. We found that many more employees were receiving the subsidy than
were signing the shuttle logs, which was consistent with the allegations
of misuse. The Office of Administrative and Personnel Management could
perform a similar analysis as part of its program monitoring.
Recommendation A
The Office of Administrative and Personnel Management should periodically
check that the number of employees riding the metro shuttle is comparable
to the number receiving the metro subsidy.
Program Guidance
A number of subsidy recipients told us that they used the subsidy until
it ran out (which would take one to two weeks), then switch to driving
to the Operations Center. They stated that they thought this practice was
acceptable.The monthly and annual certifications signed by subsidy recipients
indicate that the metro system is to be the Page 2 primary means of commuting
to and from work. A footnote on the annual certification states that public
transportation must be used more than half of the employee's total commutes
in any given month. The guidance in these certification forms was apparently
misunderstood or unread by numerous employees.
Recommendation B
The Office of Administrative and Personnel Management should issue additional
guidance on the required extent of public transit use. Alternatively, it
should consider whether the current policy should be modified, and notify
staff of the revised criteria.
Shuttle Records
We found that some log sheets were not available, even after a change in
the shuttle contractor. In addition, several sheets appeared incomplete
(i.e., they contained few signatures). A number of subsidy recipients indicated
that they did not always sign the log sheets. Finally, in several cases,
trips to headquarters were recorded on the same log sheets as trips to
the Van Dorn metro stop.
Recommendation C
The Office of Administrative and Personnel Management should remind the
shuttle contractor that shuttle logs need to be complete and on the correct
form. OAPM should spot check the logs periodically.
Exit Procedures
During the investigation, we developed evidence indicating that two forgeries
occurred on the August and October 1997 certification logs. The forgeries
were in the name of someone exiting the subsidy program, and who claimed
not to have received the subsidy for those two months. If someone exits
the program and tells only the disbursing agent, the agent could forge
that person's signature and take the subsidy. Management controls would
be improved if someone other than the disbursing agent were notified.
Recommendation D
The Office of Administrative and Personnel Management should tell program
participants who should be notified (e.g., the Program Coordinator) if
they exit the program. It should also consider periodically contacting
a sample of program participants to see if they have exited the program.
cc:     Margaret Carpenter
Dick Kanyan
Jim McConnell
Jennifer Scardino
http://www.sec.gov/about/oig/audit/248othr.htm
Home | Previous Page
Modified: 08/18/2004